WAIVER

Supreme Court, U.S.
FILED

AUG 1 4 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-27

MARK CHEESEMAN

V.

JOHN POLILLO

(Petitioner)

—(Respondent)..--

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.

E

I am not presently member of the Bar of this Court. Should a response be requested, the response
will be filed by
member.
Signature

311(1111

Date.

(Type or print) Name

DANA R. ANTON
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

GLOUCESTER COUNTY PROSECUTOR'S OFFICE

Address

PO BOX 623

City & State
Phone

WOODBURY, NEW JERSEY

856-384-5569

Email

Zip

08080

DANTON©CO.GLOUCESTER.NJ.US

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

